July 27, 2000

HENRY A. PANKEY
VICE PRESIDENT, MID ATLANTIC AREA OPERATIONS

PAUL J. SEEHAVER
EXECUTIVE DIRECTOR, MAIL TRANSPORT EQUIPMENT
 SERVICE CENTER NETWORK PROGRAM

SUBJECT:	       Audit Report – Extra Trip Expenditures within the Mid Atlantic Area
                (Report Number TR-AR-00-009)

This report presents the results of our audit of extra trip expenditures in the Mid Atlantic
Area. Our overall objective was to determine how the Postal Service could reduce extra
trip expenditures. The audit disclosed that the three major mail processing centers in
the Mid Atlantic Area-Greensboro, Louisville, and Charlotte-could save about
$2.5 million over the next five years by eliminating extra trips to move unprocessed mail
and mail transport equipment, and by discontinuing payment of diversion rates for
unscheduled stops on rural routes. The audit also disclosed that management could
further reduce costs by optimizing trailer space, increasing oversight of dispatch
operations, and increasing control over extra trip certification and payment.
Management agreed with our findings and recommendations. Management's
comments, in their entirety, are included in the appendix to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have questions or need additional information, please contact Mr. Joseph Oliva,
director, Transportation, at (703) 248-2317 or me at (703) 248-2300.



Ronald K. Stith
Acting Assistant Inspector General
 for Business Operations

Attachment

cc: Anthony M. Pajunas
    Paul E. Vogel
    John R. Gunnels
Extra Trip Expenditures in                                                    TR-AR-00-009
 the Mid Atlantic Area


                                 TABLE OF CONTENTS
Part I

Executive Summary                                                                   i


Part II

Introduction

          Background                                                               1         

          Objectives, Scope, and Methodology                                       1

          Prior Audit Coverage                                                     2



Audit Results

          Major Causes of Extra Trip Expenditures
                Optimization of Trailers and Containers                            3

                Route Service Changes                                              5

                Issues Unique to Louisville Center                                 6

                Issues Unique to Charlotte Center                                  7

                Expenditures Unique to Greensboro Center                           7

          Recommendations                                                          8

          Management’s Comments                                                    8

          Evaluation of Management’s Comments                                      9


          Internal Controls
                Completion and Authorization of Extra Trip Forms at the           10 

                   Louisville Center 

                Certification of Extra Trip Mileage at the Charlotte Center       10 

                Separation of Duties at the Greensboro Center                     11 

          Recommendations                                                         11 

          Management’s Comments                                                   11 

          Evaluation of Management’s Comments                                     11 


Appendix. Management’s Comments
Extra Trip Expenditures in                                                                        TR-AR-00-009
 the Mid Atlantic Area


                                      EXECUTIVE SUMMARY
Introduction 	                   The Office of Inspector General conducted an audit of the
                                 Postal Service’s expenditures for extra trips on highway
                                 contract routes in the Mid Atlantic Area. In fiscal year
                                 (FY) 1999, extra trip expenditures in the Mid Atlantic Area
                                 totaled over $16 million. The audit focused on the
                                 Greensboro Bulk Mail Center (Greensboro center),
                                 Louisville Processing and Distribution Center (Louisville
                                 center), and the Charlotte Processing and Distribution
                                 Center (Charlotte center), which were collectively
                                 responsible for $6.5 million or 41 percent of total extra trip
                                 expenditures in the Mid Atlantic Area.

                                 The audit was conducted in response to issues identified by
                                 Transportation managers during the development of our
                                 FY 2000 audit workload plan. Specifically this report
                                 addresses the (1) major causes of extra trips, and
                                 (2) adequacy of internal controls over extra trip
                                 expenditures.

Results in Brief	                Our audit disclosed that extra trip expenditures in the three
                                 centers were caused, in part, by suboptimization of trailer
                                 space and containers and the need for route scheduling
                                 changes. Trailer space and containers were not optimized
                                 because all three centers were not able to obtain adequate
                                 mail transport equipment. In addition, the centers were
                                 unable to identify underutilized trailer space on existing trips
                                 due to inaccurate trailer load data in the Transportation
                                 Information Management Evaluation System.1 Further,
                                 scheduling changes to convert extra trips to regular contract
                                 service were not made due to poor dispatch discipline.2

                                 Extra trip expenditures were also due to factors unique to
                                 each of the centers, that if addressed, could reduce
                                 expenditures by $2.5 million over the next five years. At the
                                 Louisville center, 45 percent of extra trip charges were
                                 either made by other Kentucky centers or other extra trips
                                 transporting unprocessed mail to another facility to eliminate
                                 processing delays. The Louisville center could reduce its
                                 costs by $525,000 over the next five years by eliminating

1
  The Transportation Information Management Evaluation System records truck dispatch and arrival times and trailer
utilization rates.
2
  Dispatch discipline ensures that processed volumes are actually moved as planned to meet intended transportation
that fits the transportation window and achieves the best possible service at the most cost-effective rate.



                                                        i
Extra Trip Expenditures in                                                        TR-AR-00-009
 the Mid Atlantic Area


                             those extra trips used to redistribute unprocessed mail. The
                             Charlotte center could save $352,000 over the next five
                             years by using space on regular trips, instead of extra trips,
                             to deliver empty mail transport equipment to small centers
                             not serviced by the area mail transport equipment service
                             center. The Greensboro center could save $1.6 million in
                             extra trip expenditures by discontinuing the payment of
                             costly diversion rates for rural routes.

                             Finally, internal controls over the authorization of extra trips
                             and payment documents were inadequate at the three
                             centers, providing no assurance that contractors were paid
                             only for work performed and that payments were
                             reasonable. Extra trip authorization forms at the Louisville
                             center were missing information essential for tracking,
                             analyzing, and assessing the quality of dispatch operations.
                             In addition they were not properly authorized. At the
                             Charlotte center, management and staff regularly certified
                             extra trip mileage over the telephone with incomplete or
                             without supporting documentation. This resulted in the
                             payment of at least one contractor for trips not performed.
                             At the Greensboro center, no separation of duties over extra
                             trip certification and payment were present to prevent fraud,
                             waste, and abuse.

Summary of                   To reduce extra trip expenditures, we recommend the vice
Recommendations              president, Mid Atlantic Area ensure mail transport
                             equipment problems are documented and reported,
                             dispatch discipline reviews are performed, and extra trip
                             costs at the Louisville center are charged to originating
                             facilities. Further, we recommend the Charlotte center use
                             existing space on regular trips to transport empty mail
                             transport equipment, review documentation supporting extra
                             trips and recover any unsupported payments; and the
                             Greensboro center immediately discontinue payment of
                             diversion rates. Also, internal controls at all three centers
                             should be strengthened.

                             Finally, we recommend the executive director, Mail
                             Transport Equipment Service Center Network Program
                             requirements for mail transport equipment.




                                                ii
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area




Summary of                   Management agreed with our recommendations, stating that
Management’s                 corrective actions would result in cost savings, the amount
Comments                     of which could not be determined. Management provided
                             corrective actions to (1) ensure adequate mail transport
                             equipment is available at processing centers, (2) conduct
                             dispatch discipline reviews, (3) charge extra trip costs to
                             originating centers, (4) utilize regular trips for transporting
                             empty mail transport equipment, (5) renegotiate diversion
                             rates, and (6) improve internal controls over extra trip
                             expenditures. Management’s comments, in their entirety,
                             are included in the Appendix of this report.

Overall Evaluation of        Management’s comments were responsive to our findings
Management’s                 and recommendations. We believe that the actions taken
Comments                     and planned should correct the issues identified in our
                             report.




                                               iii
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area


                                     INTRODUCTION
Background                   Highway contract routes provide regularly scheduled
                             surface transportation between postal facilities. If
                             unforeseen transportation needs arise that cannot be met
                             by established routes, the Postal Service can request that
                             contractors perform extra trips on existing routes. In
                             FY 1999, the Mid Atlantic Area spent $16 million on extra
                             trip expenditures.

                             Responsibility for managing extra trips is currently divided
                             between Networks Operations staff in the field and
                             transportation staff at processing and distribution centers
                             and bulk mail centers. Purchasing and Materials staff in
                             each area also process service changes affecting highway
                             contract routes.

Objective, Scope, and        The objective of the audit was to determine how the Postal
Methodology                  Service could reduce extra trip expenditures at three
                             locations within the Mid Atlantic Area—the Greensboro Bulk
                             Mail Center, Louisville Processing and Distribution Center,
                             and Charlotte Processing and Distribution Center. The
                             three facilities were judgmentally selected because
                             collectively they were responsible for $6.5 million or
                             41 percent of total trip expenditures in the Mid Atlantic Area.
                             To identify opportunities for reducing expenditures, we
                             determined the (1) major causes for extra trips, and
                             (2) adequacy of internal controls over extra trip
                             expenditures.

                             To determine the major causes for extra trips, we observed
                             dispatch operations, identified sources of expenditures,
                             reviewed trailer load rates reported in the Transportation
                             Information Management Evaluation System, and analyzed
                             dispatch schedules for regularly scheduled highway routes
                             during FY 1999. We did not determine the causes of trips
                             operated by other facilities that charged their expenditures
                             to the facilities we visited.

                             To determine the adequacy of internal controls over extra
                             trips, we reviewed extra trip authorization and payment
                             certification forms, and interviewed managers and networks
                             specialists at the three centers and the distribution networks
                             office.




                                               1
Extra Trip Expenditures in                                                     TR-AR-00-009
 the Mid Atlantic Area


                             This audit was conducted between November 1999 and
                             July 2000 in accordance with generally accepted
                             government auditing standards, and included tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our findings with appropriate
                             management officials, and included their comments, where
                             appropriate.

Prior Audit Coverage 	 In our September 29, 1999, report, Emergency and Extra
                       Trip Expenditures on Highway Routes (TR-AR-99-003), we
                       found extra trip rates were excessive because they included
                       fixed costs, such as general overhead and insurance, for
                       which the Postal Service already paid contractors as part of
                       regular contract service. Eliminating fixed costs would have
                       produced annual savings of about $739,000 based on
                       FY 1999 extra trip expenditures in the Mid Atlantic Area.
                       We also reported that better monitoring of extra trip
                       expenditures could have led to identifying extra trips that
                       occurred with such frequency they were “regularly
                       scheduled trips.” We recommended that extra trip rates be
                       established when regular service contracts are negotiated,
                       and that distribution networks offices monitor extra trip
                       expenditures. The Postal Service concurred with our
                       findings and agreed to establish a pilot to negotiate extra trip
                       rates at contract award or renewal and to develop a tracking
                       system to monitor extra trip expenditures.

                             In our December 6, 1999, report, Mail Processing Delays at
                             the Louisville Processing and Distribution Center, (TR-MA-
                             00-001), we found the equivalent of 20 trailers of
                             unprocessed Periodicals and Standard Mail staged in
                             various areas of the facility. Due to the backlog, district
                             officials used extra highway trips to redirect some mail to
                             other locations for processing and then return mail to
                             Louisville for final distribution. Management agreed with our
                             suggestions and stated that the review led to decisions,
                             which will create better control and integrity in the
                             processing and reporting of mail volumes.




                                               2
Extra Trip Expenditures in                                                                        TR-AR-00-009
 the Mid Atlantic Area


                                           AUDIT RESULTS
Major Causes of                  Our audit disclosed that extra trip expenditures in the three
Extra Trip                       centers in Mid Atlantic Area were caused, in part, by
Expenditures                     suboptimization of trailer space and containers and the
                                 need for route scheduling changes. Trailer space and
                                 containers were not optimized because all three centers
                                 were not able to obtain adequate mail transport equipment.
                                 The centers were unable to identify underutilized trailer
                                 space on existing trips due to inaccurate trailer load data in
                                 the Transportation Information Management Evaluation
                                 System. Further, scheduling changes to convert extra trips
                                 to regular contract service were not made due to poor
                                 dispatch discipline.3

                                 Additionally, at the Louisville center, 45 percent of extra trip
                                 charges were made by other Kentucky centers. This
                                 impacted the center’s ability to manage costs. Of those
                                 extra trips operated by the Louisville center, some were
                                 used to transport unprocessed mail to another facility to
                                 eliminate processing delays that had been corrected during
                                 the audit. Therefore, the Louisville center could reduce its
                                 costs by $525,000 over the next five years by eliminating
                                 those extra trips used to redistribute unprocessed mail. The
                                 Charlotte center could save $352,000 over the next five
                                 years by using space on regular trips, instead of extra trips,
                                 to deliver empty mail transport equipment to small centers
                                 not serviced by the area mail transport equipment service
                                 center. Finally, the Greensboro center could save
                                 $1.6 million in extra trip expenditures by discontinuing the
                                 payment of costly diversion rates for unscheduled stops on
                                 rural routes.

Optimization of Trailers         Management at the three centers did not always optimize
and Containers                   trailer or container space. For example, the Charlotte
                                 center dispatched two extra trips on November 5
                                 and 6, 1999, with load percentages of 5 and 15 percent,
                                 respectively. Trailer space could not be optimized because
                                 centers transported mail in palletized cardboard boxes that
                                 consumed more trailer space than other types of mail




3
  Dispatch discipline ensures that processed volumes are actually moved as planned to meet intended transportation
that fits the transportation window and achieves the best possible service at the most cost-effective rate.



                                                        3
Extra Trip Expenditures in                                                             TR-AR-00-009
 the Mid Atlantic Area



                             transport equipment. As illustrated in the following
                             photograph, palletized cardboard boxes could not be
                             stacked on top of each other and lost their shape once they
                             were loaded.




                                          Figure 1. Suboptimization of trailer space
                             Additionally, mail transport equipment was often larger than
                             what was needed to transport the mail volume. Volumes
                             easily handled by sacks were loaded into over-the-road
                             containers and cardboard boxes. Because containers used
                             were larger than needed, trailer space was not optimized.
                             For example, as illustrated below, a cardboard box was
                             used to transport a small amount of mail.




                                               4
Extra Trip Expenditures in                                                             TR-AR-00-009
 the Mid Atlantic Area




                                     Figure 2. Suboptimization of mail transport equipment
                             Although management recognized the use of cardboard
                             boxes was inefficient, they were not always able to get the
                             proper mail transport equipment, such as over-the-road
                             containers, from the mail transport equipment service center
                             to optimize space on trailers. In particular, there was a
                             shortage of smaller containers, such as sacks, needed to
                             handle smaller volumes of mail.

                             Further, all three centers were not able to identify
                             underutilized trailer space due to inaccurate trailer load data
                             in the Transportation Information Management Evaluation
                             System. Trailer utilization data was inaccurate because
                             center personnel subjectively determined capacity usage
                             based on floor coverage versus the quantity of mail loaded
                             on the trailers. However, given that trips to delivery units
                             require specific mail separation, a more accurate measure
                             of trailer utilization may not be possible. For this reason
                             centers and the distribution networks office need to more
                             frequently review dispatch discipline to ensure existing
                             transportation is optimized.




                                                5
Extra Trip Expenditures in                                                                  TR-AR-00-009
 the Mid Atlantic Area



Route Service                     Management at the three centers allowed daily scheduled
Changes                           extra trips to operate over extended periods without
                                  reviewing the need for service changes. As shown in the
                                  following chart, the three centers collectively operated
                                  23 routes that had extra trips on a recurring basis during
                                  FY 1999.

                                                      Charlotte   Greensboro   Louisville   Total
                                  Number of routes
                                  reviewed with
                                                         15            6           2         23
                                  recurring extra
                                  trips

                                  According to the Postal Service Purchasing Manual, extra
                                  trips are to be used only when an unanticipated increase in
                                  mail volume or other conditions arise. However, the
                                  Charlotte center operated daily extra trips on one route for
                                  about three years, spending over $1 million before pursuing
                                  a service change. As a result, these trips were extended
                                  even though they no longer met the criteria of being
                                  unanticipated.

                                  Service changes were not always timely because neither
                                  the centers nor the distribution networks office conducted
                                  dispatch discipline reviews. According to the Postal
                                  Service’s M-22 Handbook ,4 both district Networks offices
                                  and processing facilities should perform dispatch discipline
                                  reviews to assess whether mail volumes move as planned
                                  to meet intended transportation windows and that
                                  transportation provides the best possible service at the most
                                  cost-effective rate. However, center and distribution
                                  network management were not aware of the requirement to
                                  perform the reviews. By not completing the required
                                  reviews, daily scheduled extra trips continued to operate
                                  and transportation requirements were not addressed in a
                                  timely manner.




4
    Handbook M-22, Dispatch and Routing Policies was issued in October 1994.



                                                        6
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area



Issues Unique to             Over 45 percent of extra trip expenditures for the Louisville
Louisville Center            center were operated by other facilities. The area
                             Distribution Networks office allowed other centers within the
                             Louisville center cluster to charge their extra trips to the
                             Louisville center finance number as shown below:

                                      Sources of FY 1999 Extra Trip Expenditures

                                        Source                       Expenditures

                                    Louisville Processing and
                                    Distribution Center               $    815,619

                                    Other Facilities Charging
                                    Against Louisville Processing
                                    and Distribution Center

                                                    Evensville             438,907
                                                    Bowling Green          141,335
                                                    Paducah                 97,729

                                    Total                             $ 1,493,590

                             This process did not provide proper controls because the
                             Louisville center lacked authority over the other centers.
                             Such costs should be managed by each facility to place
                             accountability where it belongs.

                             Additionally, the Louisville center operated extra trips to
                             redirect unprocessed mail to another center to eliminate
                             processing delays identified in our December 1999 report.
                             The unprocessed mail was sent to the Bowling Green
                             Processing and Distribution Facility for processing and
                             returned to the Louisville center for distribution. In response
                             to our report the Postal Service took immediate action,
                             processing and distributing all the delayed mail before the
                             end of calendar year 1999. For this reason the extra trips to
                             the Bowling Green Processing and Distribution Facility are
                             no longer needed and can be eliminated. We estimate the
                             Postal Service could save $105,000 annually, or $525,000
                             over the next five years by eliminating this service.




                                               7
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area



Issues Unique to the         The Charlotte center operated about ten extra trips per
Charlotte Center             week to transport empty mail transport equipment to
                             associate centers not serviced by the Greensboro Mail
                             Transport Equipment Service Center. In FY 1999 the
                             Charlotte center spent $70,400 on these trips, although
                             regular trips could have accommodated the mail transport
                             equipment. Our audit disclosed that trailers dispatched
                             during the fiscal year were generally 70 percent loaded,
                             leaving 30 percent of unused space. By using existing
                             space on regular trips to transport equipment and
                             eliminating the ten weekly trips, the Charlotte center could
                             save approximately $352,000 over a 5-year period.

Expenditures Unique to       Extra trip expenditures at the Greensboro center were
the Greensboro Center        extravagant due to the payment of a diversion rate for
                             unscheduled stops on rural routes. This rate was up to
                             30 times the cost of contract rates for regular service. For
                             example, the diversion rate cost up to $45 for a diversion of
                             one mile while the contract rate averaged $1.48 per mile.
                             Diversion rates were paid for extra trips that included route
                             deviations for unscheduled stops. These charges, which
                             had been paid over a period of two years, ranged from $35
                             for diversions of 0 to 5 miles to $121 for diversions of 20 to
                             25 miles.

                             Postal Service policy provides that additional mileage be
                             paid at the current contract or pro rata rate. An analysis of
                             the diversion charges during FY 1999 showed the diversion
                             rate resulted in excess costs of $323,166. Using pro rata
                             rates instead of diversion rates could save approximately
                             $1.6 million over the next five years.

                             According to the contract specialist at the Distribution
                             Networks office, the diversion rate was added to the
                             contract to compensate contractors for rural routes.
                             However, the Greensboro transportation manager told us
                             this practice was not in the best interest of the Postal
                             Service. Despite objections from the Greensboro center,
                             the contract specialist added the diversion rate addendum to
                             existing contracts. When we interviewed the Greensboro
                             plant manager, he was unaware that contractors were being
                             paid diversion rates.




                                               8
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area



Recommendations 	            We recommend that the vice president, Mid Atlantic Area
                             Operations:

                             1. Document problems experienced in obtaining adequate
                                mail transport equipment and report them to the
                                distribution networks office for appropriate action.

Management’s 	               Management agreed with our recommendation. They
Comments 	                   acknowledged a problem and stated that they would issue a
                             letter instructing processing centers to document and report
                             all mail transport equipment problems to the area manager
                             transportation equipment specialist.

Recommendation               2. Ensure distribution networks office and processing
                                centers, perform dispatch discipline reviews, document
                                results, and implement the necessary corrective actions.

Management’s                 Management agreed with our recommendation and stated
Comments                     that they would issue instructions by July 31, 2000, to all
                             transportation offices to conduct field reviews on dispatch
                             discipline procedures. Management also stated that they
                             would conduct dispatch discipline reviews at Louisville,
                             Greensboro, and Charlotte by the end of FY 2000.

Recommendation               3. Charge extra trip costs for the Louisville center to the
                                originating center operating the extra trip.

Management’s                 Management agreed with our recommendation and stated
Comments                     that extra trips on HRC 40013 would be incorporated into
                             the renewal HCRs 42111 and 42190. Management also
                             stated that effective July 1, 2000, extra trip charges would
                             be charged to originating centers. Management further
                             stated that these changes will have an overall savings,
                             however, that they were not in agreement with the stated
                             savings.

Recommendation               4. At the Charlotte center, use existing trailer space on
                                regular trips to transport empty mail transport equipment
                                to associate offices.

Management’s                 Management agreed with our recommendation and stated
Comments                     that service changes implemented on May 20, 2000,
                             eliminated extra trips. Management also agreed that



                                               9
Extra Trip Expenditures in                                                     TR-AR-00-009
 the Mid Atlantic Area


                             eliminating these extra trips would save $352,000 over the
                             next five years and stated that regular trips were now being
                             used transport empty mail transport equipment

Recommendation               5. Discontinue the payment of diversion rates for
                                unscheduled stops on rural routes at the Greensboro
                                center.

Management’s                 Management agreed with our recommendation and stated
Comments                     that diversion rates are currently paid in accordance with
                             contractual requirements, but that requirements will be
                             renegotiated during negotiations in June 2001.
                             Management also agreed that a potential savings would be
                             realized due to the renegotiated of diversion rates, however
                             they were unable to determine the saving amount.

Recommendation 	             We recommend that the executive director, Mail Transport
                             Equipment Service Center Network Program:

                             6. Develop a plan to ensure that the mail transport
                                equipment service center network meets facility
                                requirements for mail transport equipment.

Management’s 	               Management agreed with our recommendation and stated
Comments 	                   that they have tasked area mail transport equipment
                             specialists to review and adjust mail transport equipment
                             requirements at least twice per year.

Evaluation of                Management’s comments are responsive to our findings and
Management’s                 recommendations. We believe that the actions, taken and
Comments                     planned, should correct the issues identified in our report




                                              10
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area



Internal Controls            Our audit disclosed internal controls over authorizations of
                             extra trips and payment documents were inadequate at all
                             three centers. At the Louisville center, extra trip
                             authorization forms were not properly completed or
                             authorized. The Charlotte center regularly certified extra trip
                             mileage based on telephone input from the contractor either
                             with incomplete or without supporting documentation. The
                             Greensboro center did not provide separation of duties over
                             the extra trip payment process, allowing the networks
                             specialist to both certify the extra trip mileage and approve
                             payment. More effective controls are needed to ensure
                             contractors are paid only for work performed, payments are
                             reasonable, and fraud, waste, and abuse is prevented.

Completion and               Although the Louisville center had a system for verifying
Authorization of Extra       extra trips performed and identifying duplicate payments,
Trip Forms at the            extra trip authorization forms were not properly completed or
Louisville Center            authorized. A review of these forms identified missing
                             information that was essential for tracking, analyzing, and
                             assessing quality of dispatch operations. For example, 25
                             of the judgementally-selected106 forms reviewed were
                             missing trailer numbers needed to track the extra trips. In
                             addition, some completed forms included illegible signatures
                             of authorizing individuals. As a result, the data collection
                             technician could not identify some of the signatures on the
                             forms to ensure only authorized personnel were approving
                             the extra trips. While this practice may have saved time,
                             center personnel did not ensure only valid payments were
                             made to contractors.

Certification of Extra       Staff at the Charlotte center regularly certified extra trip
Trip Mileage at the          mileage based on telephone input from the contractor either
Charlotte Center             with incomplete or without any supporting documentation.
                             For example, only 86 authorization forms were available to
                             support 289 trips paid to a particular contractor during one
                             accounting period. As a result, there was the potential for
                             paying contractors for services not performed.

                             After bringing this control weakness to the attention of the
                             Transportation manager, he determined that one contractor,
                             who had phoned in extra trip mileage, was paid $23,665 for
                             fictitious trips. As a result, the Postal Service is pursuing
                             reimbursement from the contractor. This discovery supports
                             the need for a review of documentation to support previous



                                               11
Extra Trip Expenditures in                                                       TR-AR-00-009
 the Mid Atlantic Area


                             payments and stronger internal controls over extra trip
                             authorizations.

Separation of Duties at      The Greensboro center maintained a spreadsheet system to
the Greensboro Center        identify potential duplicate payments and track total mileage
                             for certification of extra trips. However, the network
                             specialist, who completed the worksheet and certified extra
                             trip mileage, also prepared payment forms and signed as
                             approving official. As a result, there was no separation of
                             duties over the certification and payment for extra trips.
                             Separation of duties is an essential control in precluding
                             fraud, waste, and abuse. We brought this issue to the
                             attention of center managers, who agreed to strengthen
                             controls over the payment process.

Recommendations 	            We recommend that the vice president, Mid Atlantic Area
                             Operations:

                             7. Prepare complete, legible and adequate documentation
                                before certifying extra trip payments at the Louisville and
                                Charlotte centers.

Management’s                 Management agreed with the recommendation and stated
Comments                     that both the Louisville and Charlotte centers have
                             implemented controls to ensure documentation is complete,
                             legible, and adequate before certifying extra trip payments.
                             Management also stated that they will issue instructions,
                             concerning certification procedures, to all transportation
                             offices in the Mid Atlantic Area by July 31, 2000.

Recommendation               8. Review documentation for extra trip payments at the
                                Charlotte center, and recover payments that are not
                                supported.

Management’s                 Management agreed with our recommendation and stated
Comments                     that payments are currently being recovered from one
                             contractor.

Recommendation               9. Issue guidance that requires different individuals to
                                approve and certify extra trip payments at the
                                Greensboro center.




                                              12
Extra Trip Expenditures in                                                     TR-AR-00-009
 the Mid Atlantic Area



Management’s 	               Management agreed with the recommendation and stated
Comments 	                   that the Greensboro center now has the Transportation
                             manager and three staff members involved in the payment
                             process.

Evaluation of                Management’s comments are responsive to our findings and
Management’s                 recommendations. We believe that the actions, taken and
Comments                     planned, should correct the issues identified in our report.




                                              13
Extra Trip Expenditures in                             TR-AR-00-009
 the Mid Atlantic Area


                     APPENDIX. MANAGEMENT’S COMMENTS




                                   14
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             15
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             16
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             17
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             18
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             19
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area




                             20
Extra Trip Expenditures in        TR-AR-00-009
 the Mid Atlantic Area



Major Contributors to
This Report




                             21
